HHS/OIG-Audit--"Audit of Administrative Costs Claimed Under Parts A & B of the Health Insurance for the Aged and Disabled Program - Associated Insurance Companies, Inc., Indianapolis, Indiana, (A-05-97-00005)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Claimed Under Parts A & B of the Health
Insurance for the Aged and Disabled Program - Associated Insurance Companies,
Inc., Indianapolis, Indiana," (A-05-97-00005)
February 6, 1998
Complete Text of Report is available in PDF format
(3.6 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Associated Insurance Companies (AIC),
a Medicare intermediary, overclaimed administrative costs totaling approximately
$2.5 million for Fiscal Years 1994 through 1995. The overclaim resulted because
AIC understated complementary insurance credits, claimed unreasonable executive
salary increases, claimed pension costs that were not funded, claimed non-Medicare
related costs, claimed costs that exceeded actual costs, and overstated return
on investment. In addition to procedural corrections and improvements to internal
controls, we recommended a financial adjustment for $2.5 million. The AIC did
not concur with most of our recommendations.